                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A08110059
                                                                                11           Page 1 of 1



         Our office received an allegation that part of the research effort described in an unfunded
         proposal had already been completed. We wrote to the subject1and he confirmed that a research
         effort described as "in progress" in his proposal2had in fact already been completed prior to
         submission of the proposal. The subject explains that he had first written the proposal earlier in
         the year while waiting for a funding decision on an NIH proposal for essentially the same
         research. Having been declined by NIH, the subject submitted the NSF proposal, but did not
         update it or include references to his publications in press. However, the near completion of the
         work is stated clearly in the proposal. The subject was strongly reminded of his obligation to
         prepare his NSF proposals in accordance with the highest standards of scholarship and that his
         proIjosals accurately reflect the anticipated research effort.

          Accordingly, this case is closed.


                                               j




          ' Redacted.
            Redacted.



VSF OIG Form 2 (1 1/02)
